<html>
<title> - HOUSING CHOICE VOUCHER PROGRAM: AN OVERSIGHT AND REVIEW OF LEGISLATIVE PROPOSALS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







                    HOUSING CHOICE VOUCHER PROGRAM:
                      AN OVERSIGHT AND REVIEW OF
                         LEGISLATIVE PROPOSALS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         HOUSING AND INSURANCE

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2018

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 115-87





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
31-433 PDF                WASHINGTON : 2018                 












                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
STEVAN PEARCE, New Mexico            GREGORY W. MEEKS, New York
BILL POSEY, Florida                  MICHAEL E. CAPUANO, Massachusetts
BLAINE LUETKEMEYER, Missouri         WM. LACY CLAY, Missouri
BILL HUIZENGA, Michigan              STEPHEN F. LYNCH, Massachusetts
SEAN P. DUFFY, Wisconsin             DAVID SCOTT, Georgia
STEVE STIVERS, Ohio                  AL GREEN, Texas
RANDY HULTGREN, Illinois             EMANUEL CLEAVER, Missouri
DENNIS A. ROSS, Florida              GWEN MOORE, Wisconsin
ROBERT PITTENGER, North Carolina     KEITH ELLISON, Minnesota
ANN WAGNER, Missouri                 ED PERLMUTTER, Colorado
ANDY BARR, Kentucky                  JAMES A. HIMES, Connecticut
KEITH J. ROTHFUS, Pennsylvania       BILL FOSTER, Illinois
LUKE MESSER, Indiana                 DANIEL T. KILDEE, Michigan
SCOTT TIPTON, Colorado               JOHN K. DELANEY, Maryland
ROGER WILLIAMS, Texas                KYRSTEN SINEMA, Arizona
BRUCE POLIQUIN, Maine                JOYCE BEATTY, Ohio
MIA LOVE, Utah                       DENNY HECK, Washington
FRENCH HILL, Arkansas                JUAN VARGAS, California
TOM EMMER, Minnesota                 JOSH GOTTHEIMER, New Jersey
LEE M. ZELDIN, New York              VICENTE GONZALEZ, Texas
DAVID A. TROTT, Michigan             CHARLIE CRIST, Florida
BARRY LOUDERMILK, Georgia            RUBEN KIHUEN, Nevada
ALEXANDER X. MOONEY, West Virginia
THOMAS MacARTHUR, New Jersey
WARREN DAVIDSON, Ohio
TED BUDD, North Carolina
DAVID KUSTOFF, Tennessee
CLAUDIA TENNEY, New York
TREY HOLLINGSWORTH, Indiana

                     Shannon McGahn, Staff Director
                 Subcommittee on Housing and Insurance

                   SEAN P. DUFFY, Wisconsin, Chairman

DENNIS A. ROSS, Florida, Vice        EMANUEL CLEAVER, Missouri, Ranking 
    Chairman                             Member
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
STEVAN PEARCE, New Mexico            MICHAEL E. CAPUANO, Massachusetts
BILL POSEY, Florida                  WM. LACY CLAY, Missouri
BLAINE LUETKEMEYER, Missouri         BRAD SHERMAN, California
STEVE STIVERS, Ohio                  STEPHEN F. LYNCH, Massachusetts
RANDY HULTGREN, Illinois             JOYCE BEATTY, Ohio
KEITH J. ROTHFUS, Pennsylvania       DANIEL T. KILDEE, Michigan
LEE M. ZELDIN, New York              JOHN K. DELANEY, Maryland
DAVID A. TROTT, Michigan             RUBEN KIHUEN, Nevada
THOMAS MacARTHUR, New Jersey
TED BUDD, North Carolina



























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    April 17, 2018...............................................     1
Appendix:
    April 17, 2018...............................................    29

                               WITNESSES
                        Tuesday, April 17, 2018

Hammond, Dean, Board Member, Foundation for Affordable Housing in 
  Kentucky.......................................................    11
Kovich, Lynn, Deputy Secretary, Office of Mental Health and 
  Substance Abuse Services, Pennsylvania Department of Human 
  Services.......................................................     9
Sard, Barbara, Vice President for Housing Policy, Center for 
  Budget & Policy Priorities.....................................     5
White, Ruth, Executive Director, National Center for Housing & 
  Child Welfare..................................................     7

                                APPENDIX

Prepared statements:
    Hammond, Dean................................................    30
    Kovich, Lynn.................................................    35
    Sard, Barbara................................................    41
    White, Ruth..................................................    60

              Additional Material Submitted for the Record

Duffy, Hon. Sean:
    Statement for the record from the National Low Income Housing 
      Coalition..................................................    75
    Statement for the record from Lisa Dickson of ACTION Ohio....    82
    Statement for the record from the Council of Large Public 
      Housing Authorities........................................    84
    Statement for the record from the Columbus Metropolitan 
      Housing Authority..........................................    88
    Statement for the record from the Corporation for Supportive 
      Housing....................................................    89
    Statement for the record from the King County Housing 
      Authority..................................................    92
    Statement for the record from the National Association of 
      Housing and Redevelopment Officials........................    96
    Statement for the record from the National Housing Trust.....    98
    Statement for the record from the National Leased Housing 
      Association................................................   100
Beatty, Hon. Joyce:
    Letter for the record from Representatives Beatty and Stivers   102

 
                    HOUSING CHOICE VOUCHER PROGRAM:
                      AN OVERSIGHT AND REVIEW OF
                        LEGISLATIVE PROPOSALS

                              ----------                              


                        Tuesday, April 17, 2018

                     U.S. House of Representatives,
                                    Subcommittee on Housing
                                              and Insurance
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 2128, Rayburn House Office Building, Hon. Sean Duffy 
[chairman of the subcommittee] presiding.
    Present: Representatives Duffy, Ross, Pearce, Posey, 
Luetkemeyer, Stivers, Hultgren, Rothfus, Zeldin, Trott, 
Cleaver, Velazquez, Beatty, Kildee, and Kihuen.
    Also present: Representatives Hensarling, Barr, Waters, and 
Green.
    Chairman Duffy. The Subcommittee on Housing and Insurance 
will come to order. Today's hearing is entitled, ``Housing 
Choice Voucher Program: An Oversight and Review of Legislative 
Proposals.''
    Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time. Without objection, all 
members will have 5 legislative days within which to submit 
extraneous materials to the Chair for an inclusive in the 
record.
    Without objection, members of the full committee, who are 
not members of this subcommittee, may participate in today's 
hearing for the purpose of making an opening statement and 
questioning the witnesses.
    The Chair now recognizes himself for 5 minutes for an 
opening statement. However, I might take less than that, and 
reserve some time for Mr. Barr who has a bill up today.
    I want to thank our witnesses, first, for their 
participation in today's hearing, as we examine how to help 
insure that low-income families and the impoverished are not 
left on the streets and out in the cold.
    Many of you will recall Speaker Ryan's Better Way agenda, a 
series of policy reforms to address America's problems. With 
the recent announcement of Speaker Ryan, which as a Wisconsin 
guy I was sad to hear, it is bitter sweet for us to now be 
laying the groundwork and foundation for the speaker's Better 
Way agenda to fight poverty.
    In our vision for a confident America, we outlined how we 
want to evaluate Federal Government programs that have a proven 
success rate of reducing poverty.
    I believe that the measures of success of our Federal 
Government programs shouldn't be how much money we spend to 
alleviate poverty. We should be evaluating and investing in 
successful programs that lead people to self-sufficiency and 
independence, instead of Government dependence.
    So, not how much money we spend, but what are the results 
of the money we spend?
    Today, we will be looking at three different discussion 
drafts that utilize the Housing Choice Voucher Program (HCVP) 
which is administered locally by public housing agencies as a 
tool to increase mobility and lead families or individuals to 
better opportunities.
    Once a family has been issued a Housing Choice Voucher 
(HCV), they are responsible for finding the housing unit of 
their choice in which the owner agrees to rent the family a 
unit under the program.
    The local public housing authority, in turn, would pay the 
subsidy received by the family directly to the owner of the 
unit. Outside of that payment to the owner, the family is 
responsible for paying the difference between the gross rent 
and the amount subsidized by the program.
    Three discussion drafts that are the subject of this 
hearing focus on: mobility, foster youth, and those impacted by 
the opioid epidemic.
    Let us start on voucher mobility as a way to help those 
that are able to work, move to locations in which jobs are 
available. It seems fairly evident that if poverty is caused by 
a lack of employment, we should figure out ways to move people 
to opportunities. Where do opportunities exist? Let us move 
them to where the jobs are.
    In reviewing testimony for this hearing, I was compelled by 
Ms. Sard's reference to a study by Raj Chetty entitled, quote, 
``The Effects of Exposure to Better Neighborhoods on Children: 
New Evidence From Moving to Poverty Experiment,'' end quote.
    To quote Ms. Sard's testimony, she says, ``Evidence 
underscores that low-income children, whose families move from 
very poor neighborhoods to lower-poverty areas have higher 
earnings as adults and are less likely to become single parents 
and more likely to attend college, than children remaining in 
less advantageous neighborhoods.'' End quote. I thought that 
was superb in her reference.
    Under my discussion draft, we would create a demonstration 
project in which the administration of Housing Choice Vouchers 
would be designated to encourage movement to lower-poverty 
areas with expanded employment opportunities.
    A qualifying public housing agency would be required to 
submit a regional housing mobility plan that would identify 
participants, identify the number of vouchers made available in 
connection with the demonstration, and identify organizations 
and businesses participating in the plan.
    The funding from ability-related services would come from 
administrative fees and support from private entities. Three 
years after implementation of the demonstration program, the 
secretary will submit a report evaluating the effectiveness of 
the program.
    I very much look forward to a discussion on this draft, 
seeking your comments and feedback on a draft legislation.
    Next, we have a bill that was introduced by Michael Turner, 
H.R. 2069, which is focused on ensuring that foster youth have 
available housing opportunities as they age out of the 
Government's role as maybe their parent.
    Nearly one in five foster youth, initially surveyed at age 
17, report that by the age of 19, they had experienced 
homelessness. One in five kids in foster care experience 
homelessness. That is an astounding number.
    I think Mr. Turner has a very thoughtful bill that would 
prioritize foster youth when providing the housing assistance.
    I am going to take a moment and reserve 1 minute of my 
time. I will yield to Chairman Barr after I yield to the 
Ranking Member, the Gentleman from Missouri, Mr. Cleaver, for 5 
minutes.
    Mr. Cleaver. Thank you, Mr. Chairman. I appreciate this 
hearing on the oversight and review of legislative proposals. 
Welcome to those of you who are giving of your time to present 
information to us today.
    This hearing gives an opportunity to examine three 
legislative housing proposals. Improving our Federal housing 
services continues to be a significant priority of mine. We 
should all work to ensure that families, veterans, the elderly, 
and those suffering from substance abuse have access to Federal 
services and housing support.
    I welcome this conversation today and look forward to 
hearing more from you who come here to present information to 
us.
    There are three proposals that we are going to consider 
today. The first would create a demonstration program within 
the Housing Choice Voucher Program. The proposal would allow 
the secretary of HUD to create a mobility demonstration program 
where up to 10 regions could be selected.
    It would allow public housing administrations in these 
regions to create consortia that could encourage residents to 
use their housing vouchers to move from high-poverty areas to 
low-poverty areas.
    The draft is similar to one that we discussed, and actually 
debated during the Obama Administration, which was based on 
evidence from a Harvard professor, that indicates that children 
who move to higher opportunity neighborhoods increase their 
chances of success.
    I am supportive of the proposal, though I would like to 
encourage the inclusion of authorized funding from the 
administration for the program.
    Congressman Barr also has a proposal that would create HCV 
demonstration program for people suffering from opioid 
addiction. This is a well-intentioned deal, and I am supportive 
of increasing resources for those suffering from drug 
addiction, whether it is opioids or other substances.
    However, I do have concerns that the bill would give not-
for-profit entities or nonprofit entities that may not have 
housing experience the responsibility of administering this 
program.
    Housing authorities typically have the know-how and access 
to HUD databases to successfully administer voucher programs. 
The program also doesn't authorize new vouchers, but instead 
could take existing vouchers from other needy families.
    Last, Congressman Turner has a proposal that would create 
Housing Choice Voucher preference for foster youth aging out of 
foster case. I a very supportive of the goal to assist foster 
youth which is why I included a provision to improve the Family 
Unification Program when we passed HOTMA last Congress.
    This proposal, however, would give foster children a 
preference over other vulnerable groups, like the homeless 
victims of domestic violence and veterans. There are a 
multitude of Federal programs targeting at aiding foster 
children and I would prefer to work to improve and fund 
existing opportunities.
    Thank you very much and I look forward to dialogically 
becoming involved with you.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the Chair of the Monetary Policy 
Subcommittee, the gentleman from Kentucky, Mr. Barr, for 1 
minute.
    Mr. Barr. Thank you, Chairman Duffy. Thank you to the 
Housing and Insurance Subcommittee for calling this hearing 
today.
    We all know that the opioid epidemic is a major health 
crisis that has impacted every community and every 
Congressional district. My home State of Kentucky suffers from 
the third highest drug overdose mortality rate in the country.
    In light of the declaration of a national public health 
emergency announced by President Trump last fall, there is a 
pressing need for additional transitional housing for opioid 
recovery, a proven evidenced-based approach that has helped 
thousands of Americans to maintain sobriety after completing 
rehab, gained valuable skills in job training, obtain 
employment, and eventually transition back to society to lead 
independent lives.
    Too many individuals find themselves with limited housing 
choices after completing in-patient rehabilitation and are 
forced into housing situations where they are surrounding by 
people using the very same illegal substances that they went to 
rehab to stop using. This perpetuates the cycle of addiction 
and prevents individuals from rising above substance abuse.
    Current Federal programs addressing the opioid epidemic 
focus on treatment and prevention. But they do not address the 
needs of individuals who complete intensive treatment and 
require continued support.
    Our legislation, Transitional Housing For Opioid Recovery 
Demonstration Program, would allow for a limited number of 
Section 8 housing choice vouchers to be used for transitional 
housing nonprofits that have evidenced-based models of 
recovery, life skills training, and, I would add to my good 
friend, Reverend Cleaver, experience in housing.
    Today, you will hear from one transitional housing 
nonprofit from Kentucky that has had tremendous success in 
fighting the opioid epidemic and was listed recently by HUD 
secretary, Ben Carson.
    I would like to welcome to the committee my constituent, 
Dean Hammond, who helps to lead that nonprofit.
    Thank you and I yield back.
    Chairman Duffy. The gentleman yields back time he doesn't 
have.
    If the subcommittee would offer me a minute of personal 
privilege, I would like to recognize Theresa Dumais. She works 
for the Ranking Member on--the director of housing policy.
    This is her last week with the subcommittee. We want to 
thank her for her service to our committee. The great 
bipartisan work she has done to make the committee all 
possible. Thank you.
    Our loss is Freddie Mac's gain, I guess, right?
    Theresa, thank you for your service.
    I now want to recognize our panel. First, I want to 
recognize Barbara Sard, the Vice President for Housing Policy 
at the Center on Budget and Policy Priorities. Next, I want to 
recognize Ms. Ruth White, the Executive Director of National 
Center for Housing and Child Welfare. Next, Ms. Lynn Kovich, 
the Deputy Secretary at the Office of Health and Substance 
Abuse Services in Pennsylvania's Department of Human Services.
    Finally, Mr. Hammond, a Board Member for the Foundation for 
Affordable Housing in Kentucky. I don't know if Mr. Barr wants 
to make any other introduction or is that fine?
    Mr. Barr. That is fine and I look forward to welcoming Dean 
Hammond. On behalf of Phil Gray, I see Phil Gray as well, the 
President of the foundation for affordable housing in Kentucky 
as well. Welcome to you as well.
    Chairman Duffy. OK. The witnesses will, in a moment, be 
recognized for 5 minutes to give an oral presentation of their 
written testimony.
    Without objection, the witnesses' written testimony will be 
made part of the record following their oral remarks. Once the 
witnesses have finished presenting their testimony, each member 
of the subcommittee will be given 5 minutes within which to ask 
the panel questions.
    I would just note that on the table, there are three 
lights. Green means go. Yellow means you have 1 minute left. 
The red light means that your time is up.
    The microphones are sensitive so please speak directly into 
them.
    With that, Ms. Sard, you are recognized now for 5 minutes 
for an oral presentation of your written statement.

                    STATEMENT OF BARBARA SARD

    Ms. Sard. Thank you, Chairman Duffy, for inviting me to 
testify today and to you and Ranking Member Cleaver for holding 
this important hearing.
    At the subcommittee's hearing some 18 months ago, I 
recommended that Congress take a series of actions to expand 
housing choice, improve economic mobility, and make the Housing 
Choice Voucher Program more efficient. I am very pleased that 
the draft Housing Choice Voucher Mobility Demonstration Act of 
2018 would follow through on my number one recommendation.
    Today, I will focus on that bill and conclude with a few 
recommendations for improvements in the other two bills before 
you this afternoon.
    As the Chairman just noted, growing evidence underscores 
the importance of where low-income families live to a range of 
outcomes for adults and children. In particular, how moving 
from very poor neighborhoods to low-poverty ones can help 
prevent intergenerational poverty.
    While housing vouchers are very effective at reducing 
homelessness and other hardships, cutting foster care 
placements and reducing school moves, housing vouchers as 
currently administered, often do not enable families to access 
neighborhoods with greater opportunities.
    The draft Voucher Mobility Demonstration Act could help the 
voucher program reach its full potential in three ways. It 
would encourage local housing agencies to form regional 
collaboratives that lower barriers to families moving to 
higher-opportunity areas and reduce long-term operating costs.
    Second, it could make regional operation of the voucher 
program more feasible by providing the HUD Secretary authority 
to modify certain laws.
    Third, it provides a framework for learning what types of 
mobility-related services are most cost effective.
    My written testimony recommends various ways to strengthen 
the bill. I want to highlight three for you today.
    First, the bill should prioritize regional collaborations 
that serve areas with high concentrations of voucher holders in 
poor low-opportunity neighborhoods--the very families and 
children likely to most benefit from the demonstration--but 
that also include enough moderately priced rental units in 
higher-opportunity areas, so that the initiative has a high 
chance of success.
    Second, the bill should ensure that families moving within 
the region can continue to benefit from a well-performing 
family self-sufficiency program. As I am sure you all remember, 
the House recently passed H.R. 4258, the Family Self-
Sufficiency Act, that was sponsored by Chairman Duffy and 
Ranking Member Cleaver.
    Unfortunately, this excellent bill won't fix a problem that 
is particularly germane here that results from many housing 
authorities operating in a region. That problem is that 
families that move to another agency's jurisdiction may not be 
able to continue to participate in the FSS program and even may 
forfeit the savings that they have generated as their earnings 
increase while participating in the program.
    Parents should not have to choose between a safer 
neighborhood with better opportunities for their children and 
their own economic advancement. With some tweaks, the bill 
could fix that problem.
    Finally, it is also vital to authorize sufficient funding 
for a robust demonstration. We estimate that $30 million would 
support 15 regional mobility programs that offer comprehensive 
mobility services to 22,500 families over a 3-year period.
    We anticipate that about one-third of the families that are 
offered these services will actually move to a low-poverty 
high-opportunity area.
    Turning to the draft bills submitted by Congressmen Turner 
and Barr, both of these bills aim to use housing vouchers to 
address serious problems as noted. While housing assistance has 
an important role to play in both cases, it is the Center's 
view that these bills are not well designed to achieve their 
purposes.
    Most importantly, Congress should fund additional vouchers 
for these purposes. There is already a program, as Mr. Cleaver 
noted, the Family Unification Program, that provides vouchers 
that help former foster youth as well as prevent and shorten 
child placements in foster care.
    More of these vouchers would help address the serious 
problems the bill was designed to get at. Congress has shown a 
willingness, in recent years, to provide such vouchers.
    We agree with the provision of Mr. Turner's bill that 
requiring housing authorities to allow youth aging out to make 
an early application, from the age of 16, is a sensible 
requirement.
    But we are concerned about the mandatory preference 
requirement and other provisions of the bill. We want to flag 
the recommendation in our testimony that HUD could be directed 
to ensure that housing authorities actually make use of the 
nearly 50,000 Family Unification Program vouchers that have 
been funded over the years, many of which do not appear to be 
currently used.
    Vouchers also can help people exiting residential 
treatment. As we note in our testimony, building on the HUD-
VASH model would be potentially more effective.
    Thank you.
    [The prepared statement of Ms. Sard can be found on page 41 
of the appendix.]
    Chairman Duffy. Thank you, Ms. Sard.
    The Chair now recognizes Ms. White for 5 minutes.

                     STATEMENT OF RUTH WHITE

    Ms. White. Good afternoon, Chairman Duffy and Ranking 
Member Cleaver. It is my honor to address this committee on the 
topic of housing as a platform for upward mobility, 
particularly in light of the significant improvements for youth 
included by Mr. Luetkemeyer of Missouri in the Housing 
Opportunities Through Modernization Act.
    Like the proposal I will focus on today, HOTMA was informed 
by the ideas and experiences of people who live in HUD's 
assisted housing programs.
    Committee members and staff moved swiftly to draft 
straight-forward common-sense improvements. I hope that you 
will move fostering stable opportunities at a similarly 
impressive pace.
    My name is Ruth White, and I am the Co-founder and 
Executive Director of the National Center for Housing and Child 
Welfare, and a Professor of Social Work at the Catholic 
University of America.
    We are the leading advocacy organization for HUD's Family 
Unification Program which provides housing choice vouchers to 
families at risk of separation due to inadequate housing.
    My co-founder, the late Bob McKay, and I were approached in 
1999 by the Child Welfare League of America Youth Advisory 
Committee who suggested that youth should be added as an 
eligible population for FUP. We brought that idea to Senator 
Kit Bond, also of Missouri, there must be something about 
Missouri, who moved to add youth that very year.
    My professional expertise, as it turns out, is the least 
important of what brings me here today. The Fostering Stable 
Housing Opportunities Act of 2017 emerged directly from an 
event called ``3 Days on the Hill'' which brings youth, ages 14 
or older, to D.C. to speak to Members of Congress.
    It is organized by three volunteers; Lisa Dixon, a full-
time librarian; Jamal Callahan, a young business professional; 
and Doris Edelman, a retired 30-year veteran of child welfare 
work.
    Lisa is an alumna who graduated from foster care in 1989, 
and, at that time, experienced her own set of housing 
challenges. Jamal is also an alumni.
    These youth take time off of work and school, study the 
issues and come to Capitol Hill prepared to express gratitude 
when Congress gets it right, offer their gift of their personal 
stories and share suggestions from their unique vantage point. 
What a unique vantage point it is.
    Contributions to the literature by outstanding 
ethnographers, like Matthew Desmond, notwithstanding, the only 
way to inform public policy, based on experience, is to 
personally navigate the inner section between public systems as 
if your life depended on it. This is why, despite my 20 years 
of experience, I did not identify the obvious synchronization 
problems that this bill will fix, nor did anyone else in the 
professional class.
    Mr. Turner of Ohio and his staff crafted a solution to the 
synchronization problems with the system right along with 
youth. It is no surprise that Mr. Turner's partner in refining 
and introducing this bill is the Honorable Karen Bass of 
California. The co-founder and co-chair of the Congressional 
Caucus on Foster Youth, who, among so many other 
accomplishments, shepherded the Improving Foster Care Services 
for Youth Act into law just last month.
    I understand that some professionals offer FUP as a simple 
solution to the issues these youth raised. FUP is a 20-year-old 
evidenced-based elegantly simple program that works. It needs a 
predictable stream of funding of $20 million annually.
    But, at this time, no authorizing changes are needed. 
Instead, foster youth identified a serious synchronization flaw 
that must be addressed outside of FUP.
    The fate of a foster child aging out who is in need of a 
FUP voucher to ease their transition into independence is tied 
to whether or not they live in a jurisdiction of a PHA that has 
successfully applied for FUP, whether or not the availability 
of that voucher is synchronized with their emancipation.
    Currently, 197 PHAs administer FUP. This is not for lack of 
interest. Public housing authorities are excellent partners.
    When considered in the aggregate and viewed against the 
backdrop of a finite affordable housing pool, this seems like a 
typical resource constraint problem. But from the perspective 
of Sydney, Tori, Kimberly, Shuana, Christopher, Perish, and 
Savian alone in the world at the intersection of childhood and 
adulthood without the support of a family, this mismatch is an 
epic policy fail.
    These young adults did not come to D.C. to complain about 
PHAs, FUP, or anything else. They came to express gratitude and 
to offer their expertise about the problems between systems 
that only they are qualified to see.
    The Fostering Stable Housing Opportunities Act of 2017 
offers a two-pronged approach, early applications and priority 
preferences.
    Additionally, this still incorporates recommendations from 
former foster youth that have been repeatedly suggested year 
after year, dating back to Trudy Festinger's study of 1983 
entitled, ``No One Ever Asked Us,'' to ensure that young people 
aging out of foster care can use services as a platform for 
self-sufficiency.
    I will offer to you that the priority preference is 
problematic for other people because Federal preferences were 
eliminated in 1998. But the reality is that if every voucher 
that Congress gives out to housing authorities is a special-
purpose voucher, then Congress is essentially running a Federal 
preference program at this time.
    I also want to mention, just briefly, that my work is 
focused largely on ensuring that HHS uses its funding to ensure 
that young people have a self-sufficiency platform as well. HHS 
funding is flexible and elastic and can be used for private 
housing, and it can also be used to end youth homelessness.
    With that, I also want to mention that this bill is 
proptitious because we are not looking at a finite pool. A $4.9 
million multi-sector Opportunity Starts at Home campaign is 
underway to vastly increase the pool of affordable housing. 
This bill is perfectly timed with that.
    With that, I thank you. I will hand it over.
    [The prepared statement of Ms. White can be found on page 
60 of the appendix.]
    Chairman Duffy. Thank you, Ms. White.
    Ms. Kovich, you are recognized for 5 minutes.

                    STATEMENT OF LYNN KOVICH

    Ms. Kovich. Good afternoon, Chairman Duffy, Ranking Member 
Cleaver, and all the other members of the committee. It is my 
honor to be here this afternoon and testify about the 
Transitional Housing Opioid Recovery Demonstration Act of 2018.
    As the Chairman said, I am the Deputy Secretary for the 
Pennsylvania Office of Mental Health and Substance Abuse 
Services within the Pennsylvania Department of Human Services.
    Governor Wolf has made fighting the opioid crisis one of 
his administration's top priorities. In fact, in January of 
this year, he declared a disaster declaration around the crisis 
to enable the State to increase its response time to offer more 
access to treatment, to provide support to families, as well as 
to provide data to be able to attack the problem.
    It brings together most officials of his cabinet and a 
group of us meet every Monday to talk about the State's 
strategies to attack the crisis.
    I have been involved in either running, developing, or 
operating supportive housing for people with mental illness, 
people with substance-use disorder, people with developmental 
intellectual disabilities for the better part of my career. I 
am very devoted and committed to ensuring people have access to 
affordable housing, coupled with services that are specifically 
tailored to their individual needs.
    I have worked with many of the HUD-funded programs. I have 
used supportive housing as a platform to implement homestead 
settlement agreements. I have also been touched personally by 
the opioid crisis, having lost a cousin to an overdose. She was 
homeless at the time that she overdosed and passed away.
    I am now in my second State having worked in New Jersey and 
now in Pennsylvania in trying to attack this crisis on all 
fronts.
    People though--I say that people with SUD or--and/or opioid 
use disorder can and do recover. They need treatment. They need 
access to housing. They need access to services.
    The housing should not be time limited. The housing needs 
to be permanent as if we were working with folks with a mental 
illness or an intellectual disability.
    I sit here in front of you and admit readily that I don't 
think we have done a great job in providing affordable housing 
and supportive housing to people with an addiction, regardless 
of it being a substance-use disorder, like alcoholism or 
addiction to cocaine or an opioid-use disorder.
    While the legislation, the draft discussion, is really well 
intentioned, I would just like to offer four quick points.
    The voucher--the availability of a voucher should not be 
based on someone's drug of choice. It should be open and 
available to people with any substance-use disorder.
    Within New Jersey itself, we had--I am sorry, Pennsylvania. 
We had over 176,000 individuals diagnosed with a substance-use 
disorder, alcohol, cocaine, marijuana, methamphetamine; 90,000 
with an opioid-use disorder.
    The numbers really support an overall--to be able to have 
this open to people with any substance-use disorder.
    Services need to be available. In Pennsylvania, we fund our 
services through Medicaid, through State dollars, through local 
county dollars, through our Federal block grant dollars.
    But--and we have also done a lot of developing housing 
through State dollars. In an ideal world, those State dollars 
would be developed as a bridge. We have developed a lot of 
subsidies. That should be a bridge to a Federal subsidy.
    Supportive housing has been known as a three-legged stool, 
service funding, capital funding as well as subsidy. HUD having 
the two main roles in subsidy and capital. I really encourage 
the committee to continue to work on services' funding.
    Second, the demo should not impose time limits for folks. 
Permanent housing has really been the success of the HUD 
Continuum of Care program. When PHAs engage with landlords, 
they typically are thinking they are engaging on a permanent 
basis. Having it be temporary can disincentivize the program.
    There is more than three decades of evidence that permanent 
housing is the most effective way to deal with folks who have a 
substance-use disorder and/or a mental illness.
    The demonstration points to supportive housing as the basis 
of the model but it runs counter to it, in terms of it not 
being permanent. The housing needs to be low-barriers. Services 
need to be individualized and tailored to folks' needs.
    The third point is that it is not--public housing authority 
should be involved, as the Ranking Member indicated. I having 
run an opioid treatment program, addiction providers typically 
don't have experience running housing programs.
    It is a very logistically, administratively burdensome 
program, and they have the specific expertise. Public housing 
authority should be involved in the demonstration.
    Housing and services should be--should be separate. Your 
service provider should not also be your housing provider. That 
is one of the tenets of supportive housing. Finally, I would 
offer that, as others have already testified, there should be 
additional vouchers as part of this program. The Housing Choice 
Voucher Program is currently--the demand far-exceeds the supply 
of affordable housing and of affordable vouchers.
    Three million people are on the waiting list. Nine million 
would be on the waiting list if waiting lists were open. Public 
housing authorities have to close them because the demand is 
too high.
    I will end there.
    [The prepared statement of Ms. Kovich can be found on page 
35 of the appendix.]
    Chairman Duffy. Thank you, Ms. Kovich.
    Mr. Hammond, you are now recognized for 5 minutes.

                    STATEMENT OF DEAN HAMMOND

    Mr. Hammond. Chairman Duffy, Ranking Member Cleaver, and 
other interested parties, Phil Gray, the current President of 
the Foundation for Affordable Housing, and I thank you and the 
committee for this invitation.
    I have been working in low-income housing for 33 years, 
developing software to manage those authorities. For the last 
14 years, as a Board Member, the President, and now consulting 
the Board of Directors for the Foundation for Affordable 
Housing at St. James Place.
    We have 102 units of low-income homeless housing there, and 
we have been running that for 23 years. For the last 14, we 
have been dealing with veteran housing. Those who have 
substance-abuse problems and have come through a rehab program 
and into service-intensive transitional housing.
    Today, my focus will be on the Section 8 Voucher Set-Aside 
Bill for the support of transitional housing for opioid 
recovery and the Fostering Stable Housing Bill. Each is 
consistent with our service intensive transitional housing 
model.
    When we introduce opioid factor or other mental conditions, 
everything changes. It is not just some skills review kind of 
housing. There is a serious change in behavior, psych, and 
physiology. Our model seeks those who want to go beyond just 
existence and into unsubsidized permanent housing.
    The question of the candidate is, can you qualify and do 
you want to work to succeed? Because it is all up to the 
addict.
    Does--this doesn't replace rapid housing. It is a different 
category in itself. Whenever we speak of a model, rebuild a 
life, before it goes completely bad and we look to easily 
measurable items and a checklist of components.
    First, we are talking about the opioid problem in Kentucky 
which is a massive problem. Sustained recovery from addiction, 
absolutely up to the addict. 90 days of rehab treatment direct 
must be there. It is a minimum. It is a minimum. Graduate from 
that.
    Stop here and most will go back to where they were. 
Relapse. If they are on heroin, there will be an O.D. That is 
how it goes with these folks, and we have been through this 
several times.
    Structured service intensive transitional housing brings 
something else to bear. It increases the odds of success.
    Structure. Most of our clients lack structure. That is what 
got them where they were. Considered successful, special 
schools uniforms, discipline structure, military structure, 
jail structure.
    Unfortunately, they continue to go back to the structure 
they know. In 3 years, 68 percent will be back in prison. In 5 
years, 77 percent will be back in prison. 84 percent of inmates 
24 or younger, when released, will be arrested within 5 years.
    The stable housing. The stable housing has to be in a good 
environment. It can't be back where they were. It has to be 
closed circuit. Group in one building. Special lease agreement 
tied to the program, not the client.
    Permanent employment. It has to be mandatory. They have to 
have a job. That is how they are going to get through this 
thing.
    Mandatory training and education. Two different things. 
Life skills, of course you hear that. Job skills, complete Dave 
Ramsey's Financial Peace University. Trade schools. Equine 
therapy. Recovery meetings. All--whatever we have to do to get 
them there.
    Stable finances. Things like child support, trying to get 
that straightened out.
    Mandatory savings. This is one of our critical mandatory 
components. 30 percent of their adjusted gross income in 
savings. This is a great investment for us.
    Initially begins in the third quarter of the first year. 
Current program. Our veterans have saved over $300,000 in this 
program. Average was $2,200 a vet. Some over $10,000 each in 
less than 2 years.
    When someone completes any course of rehab, training or 
even incarceration, and they have no savings to start their new 
life, the recovered life, they have no option but to go back 
where they were.
    Let us return to the Section 8 directorate set aside. This 
is an exciting proposal with a few variances from the normal 
Section 8 directly combined with other funds to support all of 
the components of service intensive transitional housing, we 
have a successful model.
    For the purposes of this model, we would need a variance 
from the Section 8 normal lease to a behavior agreement. A 
variance from the 30 percent adjusted gross rent to no rent, at 
least for the first 6 months, so the savings can begin to 
build.
    Perhaps a hybrid project based or a unit based might be a 
better substitute for the authorization might work.
    To stay in housing, the candidate must be successful. 
Considering that, we are hopeful that the secretary will see 
fit to allocate the funds for the operation of the entire 
program. All of it. For support, as well as housing, as well as 
any of the outside support that we need for them.
    Let us take a look at this cost. If we enroll them in the 
University of Addiction Life Recovery, the total cost is about 
$700,000 a year based on 40 units of SRO housing. Housing comes 
in about $273,000. The program about $427,000. That was based 
on a Section 8 FMR in Lexington now.
    Based on 40 units at $17,500 per person per year. 
University of Incarceration. 2015 numbers, Federal prison, 
$31,900. Halfway house, $26,082. State prison in New York, 
$69,355. In the city of New York, $118,000. I studied this 
before we could put them in the Waldorf for that kind of money.
    We have a spread sheet that you were given to show you the 
statistics of our success working with these veterans over the 
last 14 years.
    Thank you.
    [The prepared statement of Mr. Hammond can be found on page 
30 of the appendix.]
    Chairman Duffy. Thank you, Mr. Hammond.
    I want to thank our four witnesses for their testimony.
    The Chair now recognizes himself for 5 minutes.
    First, Ms. Sard, I want to thank you for your insightful 
feedback on my bill. That is the purpose of the discussion 
draft is to have well informed people take a look at it, and 
provide us smart feedback on how we can improve a legislation. 
I think a lot of your recommendations are sound, so I thank you 
for that feedback.
    But just--I want to quickly go to just the procedural cost 
and complexity, when we have an individual that wants to move 
from one authority to another authority. Could you elaborate on 
that for us?
    Ms. Sard. Sure. There are a variety of ways this is done in 
practice. There are a relatively small number of agencies that 
actually serve a whole region by themselves.
    Then, families can easily move with their voucher wherever 
they can find a willing landlord. But, in most cases, within a 
region, there are at least two agencies administering housing 
vouchers and often far more, 10 or more.
    Where I lived for many decades, and learned the voucher 
program policy in the Boston region, there are over 60 agencies 
that administer the housing voucher program.
    In those cases, when you have to move from agency A, and 
you want to rent a unit in an area served by agency B, you have 
to use what are called portability procedures. Under 
portability, almost everybody loses, currently.
    The original agency loses its voucher. The family moves to 
another community. They lose 80 percent of their administrative 
fee.
    Other than their concern for the well-being of the 
particular family, they have no self interest in promoting 
those moves.
    Chairman Duffy. Because they are concerned about the agency 
itself and what they get, right?
    Ms. Sard. Right. Right.
    In terms of providing--HUD rules require them to give 
information to families about the value of moving to lower-
poverty areas and about the portability procedures. But they 
have no incentive to go beyond the bare minimum required.
    Chairman Duffy. Unless they had a pure heart that says, I 
am just looking out for the people in which I serve. But that 
is not always the case. Then, we have good people in these 
programs but sometimes they are concerned about the money that 
flows back into.
    Ms. Sard. Right. The receiving agencies also don't have any 
great incentive to help a family from another community get a 
potentially scarce unit compared to their residents. They only 
get 80 percent of their fee on an ongoing basis.
    Chairman Duffy. I think that is a good point. But do you 
see--does the panel see a problem generational poverty? I think 
this goes to--and I am leading to the point of--and I think you 
mentioned this, Ms. Sard, in your testimony. But if we can move 
families in a place--from a place where there is not a lot of 
opportunity to a place where there is more opportunity and a 
job, I would think that, one, you can become self-sufficient.
    But, also, what impact does that have on your kids and the 
next generation if you see a family of opportunity and working 
and that compared to a place where there is no opportunity? 
Isn't the whole system better off when you can easily move to a 
location of more opportunities?
    Ms. Sard. I agree entirely. I think the report of the 
speaker's task force on poverty in 2016 really nailed it, in 
noting that not only does the current administrative geography 
of the voucher program undermine anti-poverty goals, but it is 
also inefficient.
    Figuring out ways that are consistent with State and local 
prerogatives, but providing incentives for agencies to figure 
out solutions to these problems and collaborate are a really 
important priority for Federal policy.
    Chairman Duffy. Help get people job training. Help get 
people a job. Help move them hopefully off the system.
    Let us say I was to make--strongly consider a lot of the 
recommendations from Ms. Sard. Does anybody have an objection 
to my voucher mobility bill? Any other concerns out there? You 
guys all are bipartisan supportive?
    Great. Ms. Kovich is not saying no, so I appreciate that. 
Thank you. I don't have a lot of time left, but I want to go to 
Mr. Turner's bill. I would argue that when you fall into 
homelessness, it is harder to get out of homelessness.
    If we see kids in foster care--and one in five are falling 
into homelessness. This is a significant risk that we want to 
get them in the pipeline of the system and make sure they have 
a stable bridge into a home, making sure that they are going to 
school or getting a job. They can have an offramp into managing 
their lives on their own. I think that makes a lot of sense.
    I appreciate Mr.--you guys might be surprised that we seem 
so bipartisan up here on these bills. This is not the absolute 
priority but it has to be one of the three priorities from a 
housing authority. They have to include those in foster care.
    If we can keep kids in foster from homelessness, in the 
end, I think we save more money and make people's lives better. 
With that concept, is there any objection? No?
    Ms. Sard, go ahead.
    Ms. Sard. We are concerned about reversing the 20-year-old 
decision that Congress painfully made, that the Federal 
Government shouldn't be deciding local admission preferences. 
That that should be a local matter.
    I think that decision--while I had misgivings about it at 
the time 20 years ago--actually has been a very successful 
policy change.
    Chairman Duffy. But, isn't fair it to say that the 
Government is the parent of the child. In the end when they--
    Ms. Sard. Yes, but I think--
    Chairman Duffy. Hit an age, we are kicking them off a 
cliff.
    Ms. Sard. But--
    Chairman Duffy. And saying, you are going to fly or you are 
going to crash. That is my concern when we are the responsible 
parties in foster care.
    Ms. Sard. I do not doubt, for a moment, that the child 
welfare system has failed these youth.
    But if you try to solve the problem through changing 
admissions preferences, the people who are paying for that 
failure are the people with, potentially, equally serious needs 
at the top of the agencies waiting lists, who are not getting 
served and who have been waiting. Perhaps a family that is 
going to lose their child to foster care because they don't 
have a stable home.
    That is why the real solution here is more resources 
targeted on these--
    Chairman Duffy. But, again, we are not making them the sole 
priority but one of the top three priorities.
    Ms. Sard. That is an improvement in the bill.
    Chairman Duffy. But I am just--my time is well over. I 
think, in the long run, you are going to have these kids in the 
system, and we are going to be paying for them.
    It will be far more expensive, I think, to easily take them 
out instead of throwing them off the ledge, I think it is a 
better approach. But maybe that is a conversation we can 
continue to have, and I appreciate your honest and straight 
feedback that you have given.
    Mr. Hammond, I am 2 minutes over but I will make sure I get 
a chance to come to you.
    But with that, the Chair now recognizes the gentlelady from 
New York, Ms. Velazquez, for 5 minutes.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Ms. Sard, while there is no question that we need to 
promote choice of mobility options for individual and families 
receiving rental assistance in the draft of the House Choice 
Voucher Mobility Demonstration Bill is a step in the right 
direction, I still have some outstanding issues regarding the 
discussion draft.
    Are you concerned that the draft comes with no additional 
resources or new vouchers to carry out the demonstration? What 
type of impact will this bill have on existing voucher holders 
or those on current waiting lists?
    Yes.
    Ms. Sard. You raise two somewhat different concerns, as I 
heard you. The first one is the need for additional dollars to 
support the services and, also, additional vouchers.
    Now, I have to be forthright with the committee. I would 
love to see additional vouchers for this purpose. I was an 
author--lead author of a paper with the Urban Institute that 
was recently published as part of the U.S. Partnership on 
Mobility from Poverty, sponsored by the Gates Foundation, that 
recommends 500,000 new vouchers for very much the same purpose.
    But given that we have now about a million families with 
children who have vouchers, you can do a reasonable 
demonstration that can enable us to learn what are the most 
cost-effective strategies to help families move to higher-
opportunity communities.
    I am not concerned about any adverse consequence for 
existing families because the only ones that would participate 
in such a demonstration are those that chose to do so.
    Ms. Velazquez. OK.
    Ms. Sard. That would be choice.
    Ms. Velazquez. OK. Do you recommend the Voucher Mobility 
Demonstration Act can be improved by focusing on PHAs that 
serve areas with a high concentration of voucher holders in 
poor, low-opportunity neighborhoods that have an inadequate 
number of moderately priced rental units.
    Are you concerned about the implementation of a program 
like this in New York City, where there is an extremely low-
vacancy rate, 3.4 percent, and an extremely high monthly rental 
price for unit? My question for you is, would you think that a 
program like this will work in New York?
    Ms. Sard. I think it can work in New York. My understanding 
is that the city's Department of Housing Preservation and 
Development is working on such a program and would look forward 
to having some resources to help them.
    New York City is obviously a diverse place. There are a lot 
of different kinds of neighborhoods in New York. It would also 
be important for the city to join with surrounding housing 
authorities to widen the potential areas where housing vouchers 
could be used.
    I think it is vital if we are going to help achieve the 
effectiveness and efficiency goals of the demonstration, in 
addition to the choice goals. That it not be a single housing 
authority that is participating but a set of agencies in a 
region.
    Ms. Velazquez. My last question. The discussion draft 
called for a 3-year-evaluation cycle. Do you think that is 
enough? The last--this direct bill is modeled after the Obama 
Administration's one that lasted for 5 years or even 10 years.
    What input do you think a 3-year-evaluation cycle will have 
on the results?
    Ms. Sard. I think it is reasonable to do a 3-year 
demonstration. But to have a sound report to Congress on the 
effectiveness of that evaluation, you have to add in some extra 
time. You have to have the full 3 years to implement and that 
takes some time after enactment.
    Then, you have to have time to analyze your data and write 
a report.
    Ms. Velazquez. In conclusion, do you think that a 3-year 
cycle is enough?
    Ms. Sard. No, we recommend that it be 5 years.
    Ms. Velazquez. OK, thank you.
    Thank you, Mr. Chairman.
    Chairman Duffy. The gentlelady yields back.
    The Chair now recognizes the Chair of the Financial 
Institutions Subcommittee, the gentleman from Missouri, Mr. 
Luetkemeyer, for 5 minutes.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    Ms. White, I was interested in your conversation a while 
ago in your testimony. In the last Congress, Ranking Member 
Cleaver and I introduced the Housing Opportunity Through 
Modernization Act that you referenced. That legislation 
provided new options for use of family unification for--of the 
Family Unification Program, or FUP vouchers that you talked 
about. I think you indicated that it was funded about $20 
million, if I am not mistaken.
    Mr. Turner's legislation appears to extend the FUP model to 
all transition-age foster youth at risk of homelessness. Even 
those jurisdictions without an accurate FUP portfolio or where 
FUP is used primarily for the family population--subpopulation 
it serves.
    I guess the first question I want to ask is, do you think 
that the Fostering Stable Housing Opportunities Act is 
precisely the type of education we should use in supporting 
this activity?
    Ms. White. I do because it fixes a significant 
synchronization problem that, again, I wasn't qualified to--it 
was invisible to me. But as you talk to young people who are 
coming out of the system, they understand that there is a 
situation where they have to live in the right housing 
jurisdiction. They have to live at a housing authority that has 
the vouchers.
    Then, their emancipation has to be timed perfectly with 
when one of those vouchers becomes available. Sometimes that 
works which is why I am such a major proponent of the Family 
Unification Program.
    But when it doesn't, it is a tragic public policy fail. To 
build the sophisticated answer to that problem, it creates a 
situation where a young person could get on the waiting list at 
age 16 or older and remain there until they are close to 
emancipation which, I want to point out to the committee, isn't 
age 18. Age--it should be about age 21 and there is a number of 
ways to extend that using the Title IV-A, Ann Chasey Act 
funding.
    At that point, when they are close to age 21, they would 
then be bumped as a priority on the waiting list, and then they 
would get the voucher when it becomes available. I think there 
is probably a year-long window where they would wait for that 
voucher to become available.
    Mr. Luetkemeyer. OK, we had an interesting discussion. You 
mentioned in your testimony and then we had a discussion going 
from the Chairman and Ms. Sard with regards to preferences.
    I don't know how you solve the problem and how you list 
preferences. How do you prefer somebody who has--what of the 
other bills we are talking about that has opioid abuse. You 
have veterans. You have disabled.
    There is all these--there are a lot of folks that need some 
help. The foster children is a group that, obviously, we don't 
want to forget about either.
    You made, in your testimony, a great point with regards to 
this, maybe one way to keep them from being in this program 
forever. If you can get them into immediate housing once they 
get--or allow them to stay in the housing for a period of time 
until they get on their feet.
    I guess the question is, would you like to discuss for a 
free few moments, your view of the preference program, how you 
see it impacting foster youth?
    Ms. White. Sure. A couple things. First and foremost, I 
want to mention the fact that young people, aging out of foster 
care, would not bump veterans off of the list. They are 
eligible for a similar program that is actually modeled after 
the Family Unification Program.
    The Veterans Affairs Port of Housing Program used to be a 
transitional housing program. I made the recommendation in 2006 
that they should run it like the Family Unification Program. 
Where it is--instead of transitional house through the V.A., 
they partner with HUD.
    It is modeled after the Family Unification Program. But no 
one else is eligible for that except for veterans, so I want to 
mention that from the outset.
    The other thing is we do have a Federal preference system 
now. It is called Special Purpose Voucher. As Congress only 
awards new incremental vouchers to public housing authorities 
in the form of a Special Purpose Voucher, those housing 
authorities have no local control over the population they 
serve. We are, essentially, running a default Federal 
preference system, at this time.
    But the other thing is, and Chairman Duffy referenced it, 
and Mr. Turner actually coined a phrase, he said this is 
Government-created homelessness. We remove them from their 
parents. We become their parents. Then, we actually manage to 
do a worse job than their parents we removed them from.
    But I want to mention that, currently, the length of stay 
in assisted housing in HUD's portfolio is increasing 
significantly, because we are bringing in very worthy 
populations of people that are elderly and disabled, without 
children I might add.
    Families are the fastest declining group of people in 
assisted housing. That is a problem, too.
    But these young people would have the length of stay that 
would average about 2.5 years. The voucher would go back into 
the pool for the next available household. It actually 
creates--
    Mr. Luetkemeyer. Do you mind, I don't want to interrupt you 
but time is just about up. I have one more quick question with 
regard to that very subject here.
    What do--what do the youth do if they--or where are they 
going to go if they don't get this voucher?
    Ms. White. That is very--
    Mr. Luetkemeyer. What will happen?
    Ms. White. OK. The reality is we are now giving child 
welfare and the young people anywhere from 2.5 to 12 to 15 
years to plan for their future.
    If it became abundantly clear to a public housing authority 
and all the other partners involved that the person wasn't 
going to be self-sufficient 2.5 years later, they could work 
with the permanent supportive housing provider to secure a 
unit. But it wouldn't be this frantic last-minute planning. 
There is no planning process.
    I think if we all work together, as community partners, if 
we had a young person. But I want to point out that the young 
people that came to Ohio are all working and all in school, yet 
they struggle, unlike our own children, because they don't have 
parents to support them. They are going to be ready to launch.
    Mr. Luetkemeyer. I yield back. I appreciate the Chairman's 
indulgence. Thank you.
    Chairman Duffy. The gentleman yields back.
    The Chairman recognizes the gentlelady from Ohio, Mrs. 
Beatty, for 5 minutes.
    Mrs. Beatty. Thank you, Mr. Chairman, and thank you Ranking 
Member and thank you to our witnesses for their testimony here 
today.
    As you could see, we could probably spend all day talking 
about and debating this because of the need. Sometimes, it is a 
little difficult and, certainly, I appreciate my colleague from 
Missouri's questions in how do we rank and how do we prioritize 
because there is so much in the bill.
    But, first, I would like to start off by looking at the 
discussion draft of the Fostering Stable Housing Opportunities 
Act of 2018 which, I believe, is a very well-intended bill. I 
think, with some amending, it could make a real difference in 
what we are doing here today.
    I have focused on housing for most of my career, whether it 
was adults or veterans or human--those who are engaged in human 
trafficking or foster children. Most recently, looking at the 
problem of housing for aged-out foster youth.
    This time, Congressman Stivers and I toured the homeless 
youth facility in my district in Columbus, Ohio. The 
Huckleberry House. As a result of this experience, we wrote a 
letter and, Mr. Chairman, I would like to introduce it into the 
records.
    Chairman Duffy. Yes, without objection.
    Mrs. Beatty. I need about 10 more seconds.
    As a result of that, I am really pleased to say that when 
we submitted it to the Transportation, Housing, and Urban 
Development Subcommittee of the Appropriations Committee, we 
were requesting $20 million for the Family Unification Program 
in Fiscal Year 2018.
    I am proud to say that those dollars were just awarded in 
the recent omnibus bill that passed Congress and was signed 
into law this month.
    With these funds, the Department of Housing and Urban 
Development will be able to provide a child welfare system with 
the resources necessary to prevent family separation, due to 
homelessness, and to prevent homelessness among aging-out 
foster youth.
    Ms. Sard, to you. Can you explain the changes you 
recommended in your testimony to the Family Unification 
Program, and why you believe this would be a more effective 
approach to ending foster youth homelessness than a nationwide 
Federal program? Do you think it could lead to more children 
entering the foster care system?
    Ms. Sard. I think the recommendation the Congresswoman is 
discussing is the one we made about making sure that the nearly 
50,000 vouchers that Congress has funded over the last 20, 
almost 30 years, for the Family Unification Program actually 
get used for that purpose.
    From the data we found, which we are not sure is correct 
but it is what HUD has posted, it would appear that more than 
30,000 of these vouchers are actually not being used for the 
Family Unification Program.
    Even if the reality is half that amount, if we could 
require agencies that applied for and receive these vouchers on 
the condition that they go to families tied up in the child 
welfare system or to foster youth, we would have accomplished 
an enormous amount.
    If those agencies no longer want to do that, then HUD 
should be able to reallocate those vouchers to agencies that 
are willing to.
    As Ms. White said, there are hundreds of agencies that want 
additional resources for this purpose. An important thing about 
using the FUP program, rather than regular turnover vouchers, 
is you are not just taking away from another potentially 
equally needy family. But, also, it is a voucher that is 
connected to services provided through agencies that are tasked 
with knowing how to deliver them and have funds to do so.
    I think that combination of housing plus services is the 
key to success here.
    Mrs. Beatty. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Duffy. The gentlelady yields back.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentlelady from California, Ms. Waters, for 5 
minutes.
    Ms. Waters. Thank you very much. But I would like to yield 
to Mr. Green and then I will speak after Mr. Green, if you 
don't mind.
    Chairman Duffy. Do you want me to recognize Mr. Green 
before you yield?
    Ms. Waters. Yes.
    Chairman Duffy. Oh, yes.
    Ms. Waters. Thank you.
    Chairman Duffy. The Chair now recognizes the Governor from 
Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. I greatly appreciate 
your extending the courtesy to me. I thank the Ranking Member 
as well.
    I think that there are many places that I could be today, 
but I thought that it most appropriate that I be here.
    I had the honor of serving as the judge of a small claims 
justice court some 26 years, commonly known as the people's 
court. I had the opportunity to deal with people and their 
everyday problems.
    Through those years, I had the opportunity to ask questions 
that were very important then and some are important now.
    For example, I can recall asking a person, why don't you 
just simply move? We had these cases called forcible entry and 
detainers, commonly known as evictions. Why won't you just move 
to another area? You can pay less in rent and you can probably 
find a better job. I thought that was a pretty fair question.
    A person gave me what I thought was a pretty fair answer. 
My support system is in the area where I live. My cousin who 
keeps my baby is in the area where I live. Uncle Charlie who 
can give me a ride lives down the street.
    For this person and for many others, it is just not as 
simple as saying, move to the other side of town, pay less rent 
and there are greater opportunities.
    I take what you said, a number of you, about resources to 
mean that we should probably help people with some degree of 
job training. I take it to mean that some people will need to 
have some additional support available to them. Support systems 
so that their children may be properly taken care of while they 
are out getting these great opportunities.
    I take it also to mean that education, preparing them for 
these jobs, is important. I take additional resources to mean 
these things.
    Now, if these are not the additional resources of which you 
speak, kindly let me know because I want the record to reflect 
what additional resources really means to you.
    Anyone differ with me on additional resources? If so, it is 
OK. I just need to know what they are.
    Yes, ma'am, if you please identify yourself by name and 
speak.
    Ms. Sard. Thank you, Mr. Green.
    I think we can't forget the need for additional housing 
resources. Everything you listed is very important. But, today, 
about three out of every four households eligible for Federal 
rental assistance get no help at all, despite rising rents 
throughout the country.
    Mr. Green. In addition to these things, you would add 
additional housing resources?
    Ms. Sard. Yes.
    Mr. Green. I think you are eminently correct and I am quite 
proud that you have mentioned these things.
    Anyone else?
    Housing resources and these. Anything other resources? Yes, 
ma'am? Would you identify yourself for the record, please?
    Ms. Kovich. Lynn Kovich.
    In addition to that, what we have found is the access to 
affordable health care, we tend to silo people, in terms of you 
go here for your behavioral health services and here for your 
physical health.
    Folks need to be--have access to care coordination or case 
management so that we are looking at the whole person and not 
siloing them, in terms of their services.
    Mr. Green. Thank you.
    There has been an indication that housing should be 
permanent. I think all of you have concurred but I am not 
entirely sure. If you are of the opinion that housing should 
not be permanent, would you kindly extend a hand.
    All right, if you could be terse, I would appreciate it 
because I have one more area to visit.
    Mr. Hammond. Yes, sir. The only reason I am saying that is 
that the program with service-intensive transitional housing is 
more of a closed-circuit operation and when you are looking at 
12 to 24 months to incorporate that program and to get the 
person through it. Especially in these opioid treatment 
situations after they have gotten out of rehab. You have to get 
them down that track.
    But that is the only time. I agree with permanent housing 
when possible.
    Mr. Green. Now, quickly, that means that the 9 million that 
would be on the list--currently 3 million, that is what is 
called to our attention. That means that these other persons, 
what will we do to help them, if we make these permanent and 
there are others who are on the list?
    Hold your point on that. Let me go to the next thing.
    I have to say this. Thank you for acknowledging substance 
abuse as a problem. I don't quarrel with the opioid crisis. But 
there are other substances that are being abused. I believe you 
have all indicated that you think that this should be open to 
people with substance abuse problems, not just opioid problems?
    If I am incorrect, would you kindly extend a hand into 
there.
    OK, let the record reflect that everyone agrees. Thank you, 
Mr. Chairman, for the extra time.
    I hope that someone will answer the question about 
permanent housing and how it impacts those who are on the 
waiting list.
    Thank you very much.
    Chairman Duffy. Thank you. The gentleman's time has 
expired.
    The Chair now recognizes the Ranking Member of the full 
committee, the distinguished gentlelady from California, for 5 
minutes.
    Ms. Waters. Thank you very much, Mr. Chairman and members.
    Let me apologize for not being able to be here to hear all 
of the witnesses. I am sure that I missed part of the 
conversation that I needed to hear. But I can only now try and 
respond to what I know and understand about these legislative 
proposals. Hopefully, I will get the opportunity to talk with 
some of our preventers individually.
    We are here today to talk about three discussion draft 
proposals related to certain HUD and USDA rental assistance 
programs.
    While it seems all of the draft proposals have potentially 
laudable goals, in some respects, the goals are in tension with 
each other, it seems to me, in light of the fact that none of 
the discussion drafts are authorizing any new funding for their 
respective initiatives. Federal housing assistance programs in 
every community have very long waiting lists for assistance.
    What these bills do, absent any new resources, is just pick 
winners and losers in the competition for already scarce 
resources, rather than providing the sorely needed additional 
funding to help solve the problems.
    There is no question that we, as a country, need to promote 
choice and mobility options for individuals and families 
receiving rental assistance. We need to support youth aging out 
of foster care. The substance abuse crisis needs new solutions.
    However, these growing problems cannot be solved by 
constantly robbing from one population to pay for the needs of 
another. Trying to address these serious social challenges, 
without spending additional money, just creates more inequities 
and problems to solve.
    I am very interested to hear from all of the witnesses 
today, at some point in time, on whether they agree about the 
acute needs for increased resources to meet our Nation's most 
pressing housing challenges.
    I think that we have embarked upon a point in time where 
most of our members on both sides of the aisle understand we 
have a housing crisis in the country. It is huge. That we need 
to talk about dedicating resources to deal with this housing 
crisis.
    I have a bill that I introduced for $13.8 billion just for 
homelessness. I knew that it was not going to receive a lot of 
attention. But I wanted to point out the tremendous need that 
there is and how we just have to come to some realities about 
what is going on in this country.
    We have gentrification going on. We have this conflict 
between economic development and the creation of affordable 
housing.
    Of course, we support economic development. It is happening 
in some of the parts of my district. But guess what? With 
economic development comes the need for landlords who have 
rental housing to get more money because it becomes very 
competitive. Because with economic development, the communities 
become more desirable.
    I have a 90-year-old woman on fixed income that was just 
evicted from her unit. It goes on and on and on.
    I am really interested that the Congress of the United 
States of America make a decision about what we are going to do 
about housing in this country. What we are going to do about 
public housing. What we are going to do about Section 8. What 
we are going to do about homelessness and commit ourselves to 
spending the money.
    Now, I know that we don't mind deficits. Thanks to my 
friends on the opposite side of the aisle that have shown us 
that, really, deficits may not matter in the way that they had 
always said they would.
    We have created deficits recently with the leadership from 
the opposite side of the aisle. If we have to do that, in order 
to house people, and to provide safe and secure and decent 
housing for people in this country for our constituents, I want 
us to do that. I want us to say, we have to bite the bullet on 
housing, and we have to put up the money and the resources to 
do it.
    With that, I yield back the balance of my time.
    Chairman Duffy. The gentlelady yields back.
    The Chair now recognizes the Ranking Member of the 
subcommittee, Mr. Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Actually, most of the questions I was going to raise have 
already been raised by others.
    Obviously, during my opening statement, I spoke about the 
separation between opioid addiction and other addictions. My 
wife has a mental health clinic. She tells me that if you have 
a substance abuse, you just have a substance abuse. That 
would--I appreciate that going on.
    But when the Obama Administration put this mobility housing 
proposal out, they also laid out, as the Ranking Member 
mentioned, funding, $11 million which is not a lot of money.
    My only--one of my concerns with this program has to do 
with whether or not we are going to really try to run a 
demonstration program or will we--will it languish on the shelf 
someplace?
    I am--we do a lot of things that don't ever get 
implemented.
    But let me find out one other program--I have one other 
concern that may not have been raised. It is that the whole 
issue, as it relates to moving from one area that is in poverty 
to another. I think you, Ms. Sard, you quoted that in your 
opening statement to us.
    Can you just speak to that a little bit more about your 
other findings, that are in that report, that will present data 
showing that life improves as you move to a more substantial 
and stabilized neighborhood?
    Ms. Sard. Thank you, Congressman.
    The study by Raj Chetty and others, that the Chairman and 
you also refer to, is, really, the latest in a series of 
studies, that have shown the impact on kids and adults from 
moving out of very high-poverty communities, particularly out 
of communities that are plagued by violence and moving to safer 
communities with a mix of incomes and also, importantly, with 
good schools. We cite research that pulls that together.
    The geography of the voucher program today means that there 
are too many communities where there are a lot of people living 
in high-poverty areas. But there are not a lot of rental 
housing opportunities in low-poverty areas with good schools 
within the boundaries of the jurisdiction.
    That means that it becomes vital to have the agencies 
within a region, that serve a mix of communities, collaborate 
together for the well being of the families that live in that 
region.
    The rest of us, who are not dependent on the Government for 
housing assistance, think of housing as a regional market. We 
think about where is a good school for our kids? Where is 
transportation? Where is my job? Where are there parks?
    Unfortunately, the way the administration of the voucher 
program is divided up in most places, which is city by city, 
really limits the choices of low-income people.
    Mr. Cleaver. Of course, gentrification--if the study were 
going to be done today, I would tell them to try to factor in 
gentrification.
    When I was first elected 14 years ago, my wife and I went 
down by the stadium looking for a place to maybe buy a house. 
Capitol Hill police happened to be coming by. He was on 
horseback. He saw my pin and he said, Congressman, are you 
looking for a house down here? I said, sure. He said, look, I 
have a gun and I wouldn't move down here.
    Now, I am not going to move down there now because I can't 
afford it. I don't know many people in Congress who can. What 
is happening there is happening all over the country.
    I think the Ranking Member hit it earlier. Low-income 
housing--we have--we are in a crisis. Where do those people 
live who used to live down there and where are they now? Where 
are they in Kansas City, Missouri?
    My wife grew up on a street, Lake Street. Now--the house 
they lived in cost $8,000. Two blocks away today is a house 
selling for $660,000. The study provides us, I think, some 
great data.
    But, my goodness, this gentrification issue has to be dealt 
with.
    Mr. Chairman, I yield back.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the subcommittee chairman on 
monetary policy, the gentleman from Kentucky, Mr. Barr, for 5 
minutes.
    Mr. Barr. Thank you, Chairman Duffy and Ranking Member 
Cleaver, for holding this important hearing.
    Again, a welcome to my constituents, Dean Hammond and Phil 
Gray, and for your leadership and showing us the way with a 
program that works. That leads to sobriety, that leads to self-
sufficiency and long-term nonsubsidized housing and work for 
many of the veterans that go through your program.
    I have been very impressed. I know Secretary Carson, when 
he came and visited with you in Lexington, was very impressed 
with the model that you have shared with us today.
    As you all know, Congress has passed several key pieces of 
legislation to address the opioid epidemic, including the 21st 
Century Cures Act, the Comprehensive Addiction Recovery Act, 
and the recently enacted appropriations bill which includes 
several billion dollars in funding for opioid treatment and 
prevention.
    Despite these important investments, what has been 
frustrating for me and my staff is that when--as we look at 
some if the programs that are funded, it is really oriented 
toward treatment and medication-assisted treatment and law 
enforcement resources. But there is not that long-term recovery 
piece.
    When we are trying to help groups like St. James Place and 
the Foundation for Affordable Housing in Kentucky, those 
resources for that next phase after treatment, post-rehab, for 
long-term sober living, that is not there. There needs to be 
that longer term.
    I think Secretary Kovich, you made this point in arguing 
against time limits. We need longer-term help. I agree with 
you. Totally agree with you.
    To Mr. Hammond. Do you believe this demonstration program 
would fill a gap in Federal resources to address the addiction 
crisis?
    Mr. Hammond. Yes, sir. As I said, with a couple of 
variances on the Section 8 voucher program and coupled with the 
full funding to take care of the rest of the sober living part 
of learning how to live in society and then going on to 
unsubsidized housing.
    Mr. Barr. Let me address Secretary Kovich's point about 
time limits and also this should cover all SUDs, all substance-
use disorders, not just the opioid crisis.
    This is a draft bill for a reason. We want feedback from 
people on the front lines like you. Ms. Kovich, my condolences 
on your personal connection to this crisis. Unfortunately, I 
have met a lot of families whose lives have been upended by 
this in my Congressional district.
    One of the reasons why we propose the bill as--and focus on 
opioids. One is to respond to the President's declaration and 
focus on this particularly acute problem.
    But the other is actually to address the other point that 
you made which is that we don't want to displace the existing 
voucher allotment in a more profound way.
    It is a resource question. But your point is well taken.
    On the time-limit question. While I agree that 90 days is 
not enough to get someone to that long-term recovery, would--my 
question is, do you believe that pairing the work training, the 
job placement, the recovery services with the Section 8 Housing 
Choice Voucher Program could help recipients rise above 
addiction, lift themselves out of poverty through the blessing 
of work? Then, ultimately, graduate from the subsidized housing 
piece. Graduate from the dependence on the voucher piece.
    That is to Mr. Hammond.
    Mr. Hammond. Yes, sir, absolutely. We have shown that and 
you can see the statistics on our veteran program with our 
graduations.
    Just one of them here in 2017. We had 68 percent going into 
permanent housing. And 44 percent of those were in unsubsidized 
permanent housing. Certainly that has been our goal all along.
    Mr. Barr. I think that is the point as well. We don't want 
a time limit that is too truncated and unrealistic.
    We do believe that you can realistically graduate from the 
voucher program, freeing up space for others, in the--in the--
these lines, these waiting lines. By having a voucher that is, 
say, limited to 18 months or 2 years.
    Mr. Hammond. Yes, sir. In that particular statistic I just 
gave you, the average length of stay was 281 days.
    Mr. Barr. One other piece of feedback that we heard from 
Ms. Sard was that it would be extremely inefficient and error 
prone if we did not bring in the public housing agencies.
    Mr. Hammond, is it your experience that you have--you need 
a public housing authority to actually implement your program?
    Mr. Hammond. We need--in Kentucky, they are the ones that 
administer the Section 8 program.
    Mr. Barr. Right. But do you think nonprofits are incapable 
of actually implementing the program?
    Mr. Hammond. No, sir. Because what we are having now with 
our veterans, the V.A. grant per diem program, we administer 
that whole thing and turn in our reports for bed days and are 
funded through the Veterans Administration. We are actually 
running a bachelor program based on bed days.
    Mr. Barr. My time is expired but I will just conclude with 
one final point. That is that I believe that an increased 
Federal investment in this transitional housing will actually 
save taxpayers money.
    Because, in the long run, if we help people--assist people 
to escape poverty and move them into permanent, non-subsidized 
housing where they have a job and they are addiction free, 
where we end the cycle of addiction, that is a taxpayer. That 
is a taxpayer.
    That is not someone who is incarcerated. That is not some 
whose life has been destroyed. That is a taxpayer, a productive 
person through the blessing of work and sobriety. That person 
is a contributor.
    Once again, we appreciate you showing the way.
    I yield back.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the Ranking Member for points and 
personal privilege.
    Mr. Cleaver. Thank you, Mr. Chairman.
    You had mentioned Theresa Dumais. I just wanted to give an 
expression of appreciation. I have worked with her over the 
last few years and she is quite the professional. She is 
extremely knowledgeable. Not nerdy. She is extremely 
knowledgeable about all matters housing. I wanted to express 
appreciation, as you did earlier, for having the opportunity to 
work with her.
    Ms. Waters. Do you have more time?
    Mr. Cleaver. I yield to you.
    Ms. Waters. Thank you. Thank you very much. I appreciate 
that.
    I have to, perhaps talk about this for the first time. 
There are some things that I wish I had done, as it relates to 
substance abuse.
    We had an epidemic of crack cocaine in some communities in 
this country. We had babies who were born to parents who were 
addicted. We never knew and we don't know what happened to 
those children. There was never any research done.
    We do know that we have increased numbers in some of our 
public schools for children who have learning disabilities and 
problems that they put into special education. We don't know 
whether or not the crack babies survived in a way that they 
will ever be productive citizens.
    I guess what I am thinking now, as I listen to what we are 
talking about with the opioid epidemic, is we have to make sure 
that we go for resources to deal with all of the substance 
abuse problems that have created problems in our communities 
all over.
    I think this can be a bipartisan effort because we all have 
these problems in our communities. I would love to be able to 
support something that is comprehensive and really puts the 
resources into dealing with these epidemics that we are 
confronted with.
    I yield back to the Ranking Member.
    Thank you.
    Chairman Duffy. I just, to Theresa, would say, that could 
be your plaque, knowledgeable but not nerdy. There you go. If 
wanted to be nerdy, too, you could.
    But I think the Ranking Member brings up a good point. We 
want to look at all substance abuse, and its impacts it has and 
not just on housing but impacts it has on our children in our 
society as a whole.
    So, I think we might be shocked that a committee, with such 
diversity of opinion, can be so bipartisan. It is that work 
that is going to bring us to real solutions that can truly 
affect people's lives.
    I want to thank all the members who participated today.
    I would just make a note for our panel. We did have a few 
Republicans leave. There was a briefing on Syria that was going 
on today which was why you saw an exit for that briefing. It 
doesn't mean there was not an interest in the topic of the day.
    With that, thank you, panel, for your testimony.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    But, again, thank you for your testimony.
    And, without objection, this hearing is now adjourned.
    [Whereupon, at 3:32 p.m., the subcommittee was adjourned.]

                            A P P E N D I X



                            April 17, 2018




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
